No. 19-554

In the Supreme Court of the United States
50 MURRAY STREET ACQUISITION LLC,
Petitioner,
v.
JOHN KUZMICH, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, counsel for the Real Estate Board of New York, hereby
certify that, according to the word-count tool in Microsoft Word, the Brief of the
Real Estate Board of New York as Amicus Curiae in support of petitioner consists of
4,187 words, including footnotes and excluding the sections enumerated by Rule
33.1(d). The Petition therefore complies with Rule 33.1(g).
/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

